No.
IN THE
SUPREME COURT OF THE UNITED STATES
GREGORY C. DACANAY,
Petitioner,
v.
PEOPLE OF THE STATE OF ILLINOIS
Respondent.

On Petition For Writ of Certiorari
To The Supreme Court of Illinois
PETITION FOR WRIT OF CERTIORARI

SALVATORE C. MIGLORE
Counsel ofRecord

SALVATORE C. MIGLORE & ASSOCIATES
300 S. Carlton Avenue, Suite 130
Wheaton, IL 60187
Phone: (630) 933-8400
Fax: (630) 933-8432
E-mail: sal@lincolnlawgroup.com

I.

QUESTION PRESENTED

Whether law enforcement officers, despite their answers to voir dire questions, can
be fair and impartial jury members in a criminal trial in order to satisfy the
requirements of the Sixth and Fourteenth Amendments to the United States
Constitution regarding a defendant’s right to a fair trial by an impartial jury and in
order to avoid structural error in the trial.

II.

TABLE OF CONTENTS

I.

Question Presented

1

II.

Table of Contents ...

n

III.

Table of Authorities

111

IV.

Petition for Writ of Certiorari

1

V.

Opinions Below..............................

1

VI.

Jurisdiction.....................................

1

VII.

Constitutional Provisions Involved

2
2

VIII. Statement of the Case
1. Factual Background..........

5

IX.

Reasons for Granting the Writ

9

X.

Conclusion................................

18

XI.

APPENDIX
Order, Appellate Court of Illinois,
Second District, September 22, 2020

la

Order, Supreme Court of Illinois,
January 27, 2021 ..............................

15a

Relevant Statute...............................

16a

li

III.

TABLE OF AUTHORITIES

CASES
Apprendi v. New Jersey, 530 U.S. 466, 120 S. Ct. 2348 (2000)........

3

Arizona v. Fulminante, 499 U.S. 279, 111 S. Ct. 1246 (1991)..........

3

Batson v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712 (1986)..................

3

Blakely v. Washington, 542 U.S. 296, 124 S. Ct. 2531 (2004)..........

3

Chapman v. California, 386 U.S. 18, 87 S. Ct. 824 (1967)................

3

Ellis v. State, 736 S.E.2d 412 (Ga. 2013)...............................................

12

In re Winship, 397 U.S. 358, 90 S. Ct. 1068 (1970)............................

15, 16

Neder v. United States, 527 U.S. 1, 119 S. Ct. 1827 (1999).............

3,4

Patton v. Yount, 467 U.S. 1025, 104 S. Ct. 2885 (1984)....................

2

Pena-Rodriguez v. Colorado, 137 S. Ct. 855 (2017)............................

9, 10, 16, 17

People v. Cole, 54 Ill. 2d 401, 298 N.E.2d 705 (1973).........................

4, 10, 11, 17

People v. Downs, 2015 IL 117934, 410 Ill. Dec. 239, 69 N.E.3d 784

15

People v. Ringland, 2017 Ill. 119, 484, 89 N.E. 3d 735, 17 Ill. Dec. 876 (2017)

12

Ramos v. Louisiana, 140 S. Ct. 1390 (2020)...................................................

3

Rivera v. Illinois, 556 U.S. 148, 129 S. Ct. 1446 (2009)...............................

9

State v. Gaines, 688 So. 2d 679 (La. Ct. App. 4th Cir. 1997).....................

14

State of West Virginia v. Marshall West, 200 S.E.2d 859 (1973, W. Va.).
........12, 13
72 A.L.R.3d 895 * 4.................................................................
Sullivan v. Louisiana, 508 U.S. 275, 113 S. Ct. 2078 (1993) ....

.......... 3, 15

Washington v. Recuenco, 548 U.S. 212, 126 S. Ct. 2546 (2006)

3, 4, 13, 15

STATUTES
12

705 ILCS § 305

in

CONSTITUTIONAL PROVISIONS
United States Constitution,
Amendment VI........
United States Constitution,
Amendment XIV.....

passim
passim

IV

IV.

PETITION FOR WRIT OF CERTIORARI

Gregory C. Dacanay, by and through his attorney, Salvatore C. Miglore,
respectfully petitions this Honorable Court for a writ of certiorari to review the
judgment of the Illinois Appellate Court, Second District in affirming Mr. Dacanay’s
conviction. Mr. Dacanay’s Petition for Leave to Appeal to the Illinois Supreme Court
was denied.
V.

OPINIONS BELOW

The decision by the Illinois Appellate Court, Second District, affirming the
aggravated criminal sexual abuse conviction of Gregory C. Dacanay, is reported as
People v. Dacanay, 2020 IL App (2d) 190533-U. However, this is an unpublished
opinion and cannot be cited as authority pursuant to Illinois Supreme Court Rule 23.
The Supreme Court of Illinois denied Mr. Dacanay’s Petition for Leave to Appeal on
January 27, 2021 (Ill. Sup. Ct., January 27, 2021, Docket #126558). The Illinois
Appellate Court, Second District, decision is attached at Appendix (“App.”) la and the
Supreme Court of Illinois denial of Mr. Dacanay’s Leave to Appeal is attached at App.
15a.
VI.

JURISDICTION

The Illinois Appellate Court, Second District, Affirmed the trial court’s decision
on September 22, 2021. Mr. Dacanay’s Petition for Leave to Appeal to the Supreme
Court of Illinois was denied on January 27, 2021. Mr. Dacanay invokes this Court’s
jurisdiction under 28 U.S.C. § 1257, having timely filed this Petition for writ of
certiorari within ninety (90) days of the Supreme Court of Illinois’ denial of his
Petition for Leave to Appeal.
1

VII.

CONSTITUTIONAL PROVISIONS INVOLVED

United States Constitution, Amendment VL
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation! to be confronted with
the witnesses against him! to have compulsory process for obtaining witnesses in his
favor, and to have the assistance of counsel for his defense.
United States Constitution, Amendment XIV:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States! nor shall any state deprive any person of
life, liberty, or property, without due process of law! nor deny to any person within its
jurisdiction the equal protection of the laws.

VIII. STATEMENT OF THE CASE
This is a case involving solely a federal question regarding an impartial jury.
It has long been held that the U.S. Constitutional standard that a juror is impartial
only if s/he can put aside his/her opinions and prejudices in order to render a verdict
based solely on the evidence presented is a standard defined by federal law. Patton
v. Yount, 467 U.S. 1025, 104 S. Ct. 2885 (1984). Although Yount, supra, dealt with
pre-trial publicity in connection to a fair trial, its holding is instructive on the instant
issue presented. The Yount court held that the only way to test juror impartiality is
to find out if potential jurors had such fixed opinions that they could not judge the
guilt of a defendant impartially. Id. at 1. The essential question is: what is the proper
procedure to determine juror impartiality?

This question is answered by l)

Questioning a prospective juror and having the trial judge being satisfied by the
answers, and 2) observation of demeanor and body language.
2

Both of these

procedures rely heavily on the trial judge’s discretion. The Petitioner maintains that
this much reliance on a trial judge’s discretion to such an essential process is flawed
and that instead, more uniform rules should be established that would be applicable
throughout state and federal courts with respect to law enforcement on criminal
juries.
Regarding this Court’s holdings as to the Sixth and Fourteenth Amendments
regarding the right to a fair trial and impartiality, this Court has held that such
requirements are primarily based on ‘Batson issues,’ (Batson v. Kentucky, 476 U.S.
79, 106 S. Ct. 1712 (1986)) pre-trial publicity, and improper findings of guilt based on
an incorrect burden of proof in a criminal trial. This Court also considered cases
where a defendant was found guilty when an essential element of the case was not
part of a jury’s verdict and was not proved beyond a reasonable doubt. Washington
v. Recuenco, 548 U.S. 212, 126 S. Ct. 2546 (2006); Apprendi v. New Jersey, 530 U.S.
466, 120 S. Ct. 2348 (2000); Blakely v. Washington, 542 U.S. 296, 124 S. Ct. 2531
(2004); Sullivan v. Louisiana, 508 U.S. 275, 113 S. Ct. 2078 (1993); Ramos v.
Louisiana, 140 S. Ct. 1390 (2020). Structural errors based on federal constitutional
violations are not harmless, regardless of any overwhelming evidence to support a
conviction, if such errors are deemed to be a structural deficiency. Such deficiencies
erode the integrity of verdicts, the integrity of the judicial process, and trust in our
criminal justice system. Chapman v. California, 386 U.S. 18, 87 S. Ct. 824 (1967);
Neder v. United States, 527 U.S. 1, 119 S. Ct. 1827 (1999) quoting Arizona v.
Fulminante, 499 U.S. 279, 111 S. Ct. 1246 (1991). Hence, the question is not simply

3

based on independent state law, the answer rests solely on the heart of the Sixth and
Fourteenth Amendments. All of the above-mentioned cases and others are considered
structural errors based on federal law, not state law issues, for the reasons discussed
infra.
This Court deems most constitutional errors in state court trials to be harmless
if the defendant was represented by competent counsel and if a trial was held by an
impartial jury. Therefore, there is a strong presumption that a constitutional error
is a harmless error. Thus, this Court has rarely held that an error is structural and
requires automatic reversal. However, in cases requiring automatic reversal, such
an error renders the criminal trial fundamentally unfair and unreliable in
determining a defendant’s guilt or innocence. Recuenco, 548 U.S. 212 at 10 citing
Neder, 527 U.S. 1 at 9. The Petitioner respectfully maintains that the instant matter
is a rare occurrence and should be addressed by this Court as a structural error based
on the Sixth and Fourteenth Amendments to the U.S. Constitution. The issue of law
enforcement officers serving on criminal juries is not a question of an adequate and
independent state ground.
For over 200 years, Common Law jury qualifications barred law enforcement
officers from serving on criminal juries in various states, including Illinois. Then, in
1973, People v. Cole, 54 Ill. 2d 401, 298 N.E.2d 705 (1973) removed the per-se bar to
law enforcement serving on criminal juries or presumption that law enforcement
officers are unfit, to serve on such juries to ensure impartiality, instead vesting a judge
with sole discretion as to whether or not to remove such officers for cause within
4

certain parameters based on voir dire direct examination. This Court has never
examined the issue of law enforcement officers serving on criminal juries relative to
the fair trial and impartiality rights set forth in the Sixth and Fourteenth
Amendments to the U.S. Constitution. This case presents the question of whether
law enforcement officers, despite their answers to voir dire questions, can be fair and
impartial jury members in a criminal trial in order to satisfy the federal
constitutional requirements of a defendant’s right to a fair trial by an impartial jury
and fundamental fairness. In this case, the police officer was also the jury foreman.
This was not harmless error and simply a question of state law! the inclusion of the
police officer on the jury directly caused a structural defect, irrespective of any
overwhelming evidence of the Petitioner’s guilt.

This structural defect cast

substantial doubt on the reliability of the verdict.

1. Factual Background
Mr. Dacanay (“the Petitioner”) has been married for approximately twenty (20)
years and has two (2) children. He holds a college degree, has completed specialized
education in physical training/sports conditioning, and has held high-level
supervisory positions within his profession, all to the satisfaction of his superiors. He
had no employment disciplinary records and no prior criminal history.
This Petition pertains to a criminal matter regarding an alleged incident on
April 14, 2018, which allegedly occurred at a gym/athletic facility (“the gym’). The
Petitioner was forty-two (42) years of age and working at the gym as a trainer and

5

supervisor at the time of the alleged incident. The alleged victim (“G.M.”) was sixteen
(16) years of age and also working at the gym at the time of the alleged incident. The
Petitioner was accused of oral copulation with G.M. in a training room at the gym.
During the investigation following G.M.’s report to the police, a police investigator
messaged the Petitioner through Snapchat, posing as G.M. During these Snapchat
conversations, the Petitioner sent the investigator a photograph of his sex organ via
Snapchat.

He also answered the investigator’s questions during Snapchat

conversations, portions of which were as follows:
INVESTIGATOR LIBERIO [as G.M.]: have you been thinking about
giving me another blowjob
DEFENDANT: Ha maybeereeeee
* * * *

INVESTIGATOR LIBERIO [as G.M.]: no just freaking a little but ok
DEFENDANT: Lol. Ur fine.
U want it again
9

Wait so shud i vanish?
INVESTIGATOR LIBERIO [as G.M.]: you’ll give me another blowjob?
DEFENDANT: U have to b more discreet when u chat. Lol
During questioning with investigators, the Petitioner denied any wrongdoing but
admitted to sending the above Snapchat messages.
The Petitioner was charged with two (2) counts of Aggravated Criminal Sexual
Abuse (both Class 2 Felonies) - person 5+ years older than victim - victim 13-16. The
Indictment as to Count I stated that the Petitioner committed Aggravated Criminal
Sexual Abuse when he allegedly committed an act of sexual conduct with G.M. by
6

touching G.M.’s sex organ for the purpose of sexual gratification or arousal of G.M. or
the Petitioner. The Indictment as to Count II stated that the Petitioner committed
an act of sexual penetration when his mouth allegedly touched G.M.’s sex organ for
the purpose of sexual gratification or arousal of the alleged victim or the Petitioner.
The Petitioner filed a Motion in Limine to Bar Certain Evidence and Testimony
at Trial, which specifically pertained to barring photographs/ screenshots of Snapchat
communications taken by an investigator from being presented as evidence at trial.
This Motion in Limine was denied as to l) barring a photograph of sex the Petitioner’s
sex organ, 2) barring evidence or testimony regarding surveillance video from the
gym, and 3) barring Snapchat photos and conversations taken from the Petitioner’s
cell phone. The Petitioner also filed a Motion to Suppress Statements Regarding
Certain Snapchat Messages Pursuant to 720 ILCS § 5/114-11, which was also denied.
After a jury trial, the Petitioner was found guilty of 2 Counts of aggravated
criminal sexual abuse, the alleged victim being a juvenile. During voir dire and after
the Petitioner exercised all peremptory challenges, a police officer from a different
police department than the one involved in the case being tried was questioned. This
officer, identified as Juror 94, had been so employed for about seven and a half years.
During this time, the officer worked in a juvenile investigations unit, but did not
investigate child abuse specifically. The officer had also been an evidence technician
and in this capacity had attended to a crime scene involving a criminal sexual assault
case less than a year prior to serving on the Petitioner’s jury. Although said most
recent crime scene processed by the officer did not involve a juvenile, the officer had
7

previously investigated over ten (10) criminal sexual assault cases. The trial court
sentenced the Defendant to thirty (30) months of sex offender probation, one-hundred
and twenty (120) days in the DuPage County Jail with two (2) days of credit, and
lifetime sex offender registration.
The Petitioner had utilized all peremptory challenges prior to the police officer
and therefore moved to excuse the officer for cause. The Court denied this motion,
citing that the officer had answered all questions from the Court, the State, and the
Petitioner appropriately.

The Court also noted that the officer’s demeanor and

answers let the Court to believe that he was being truthful. The Petitioner’s request
for additional peremptory challenges was denied, an issue based solely on state law
and therefore excluded in the question presented in this Petition. The officer also
served as the foreperson.
During voir dire examination of the officer, the Petitioner attempted to
determine how the officer would approach deliberations and examine evidence
presented a trial. The officer mentioned a “reasonable person” agreeing with him and
the Petitioner asked what he meant by “reasonable person.” The Petitioner also
asked the officer if he was equating “reasonable person” with probable cause or the
“beyond a reasonable doubt” standard. During this examination, most of the State’s
repeated objections were sustained. The Petitioner was not permitted by the Court to
ask the officer to explain his meaning of a “reasonable person.” The Petitioner’s
counsel was not allowed to question the officer regarding the officer’s opinion as to
the standards of proof beyond a reasonable doubt and probable cause to arrest. The
8

Petitioner was not allowed to explore whether the officer cold be a fair and impartial
juror; his answers indicated that he equated probable cause for an arrest with
reasonable doubt to convict.

Illinois has no patterned jury instructions for the

definition of reasonable doubt and parties are forbidden to define this constitutionally
protected standard for a jury.
On direct appeal, Dacanay renewed his argument that his Sixth and
Fourteenth Amendment rights in the U.S. Constitution had been violated by l)
having a police officer on the jury, departing from common law juror qualifications
without a reasonable basis, and 2) being precluded from further examination of the
officer regarding his definition/understanding of reasonable doubt as opposed to a
reasonable person agreeing with him. The Second District Appellate Court did not
address the Petitioner’s arguments regarding the Common Law not being superseded
by any Illinois state law and that the law should be interpreted to guarantee a
defendant a fair trial by an unbiased jury in relationship to and pursuant to the Sixth
and Fourteenth Amendments to the U.S. Constitution, especially considering a
confused understanding of reasonable doubt by the jury foreman.
IX.

REASONS FOR GRANTING THE WRIT

Firstly, because the genesis of this Petition involves a structural error in the
jury trial, matters of federal law in relationship to the Sixth and Fourteenth
Amendments are at issue. Therefore, it is proper for this Court to review the issues
set forth in the instant Petition. Rivera v. Illinois, 556 U.S. 148, 129 S. Ct. 1446
(2009) and Pena-Rodriguez v. Colorado, 137 S. Ct. 855 (2017).
9

The Petitioner’s criminal trial was fundamentally unfair and produced
structural errors because the trial court violated the Sixth and Fourteenth
Amendments to the United States Constitution in that: l) the police officer (Juror 94)
was allowed to serve on the jury, in context with the facts of the case, in violation of
the Sixth and Fourteenth Amendments and Illinois law based on the abuse of
discretion standard; and 2) the jury improperly applied the reasonable person
standard in reaching their verdict, as opposed to applying the constitutionally
required reasonable doubt standard.
In essence, People v. Cole, 54 Ill. 2d 401, 298 N.E.2d 705 (1973), the case in
Illinois that changed 200 years of Illinois Common Law, left the issue of law
enforcement serving on criminal juries to the Court’s discretion, along with Illinois
statute 705 ILCS § 305/1 et al. At common law, there were certain direct or indirect
relationships or connections that may have existed between a juror and a party to the
litigation and/or a witness that were so direct or indirectly prejudicial that a juror
would be presumed biased and therefore disqualified. Since 1973, these types of
relationships are permitted under Cole, 54 Ill. 2d 401 if the trial judge is satisfied in
his complete discretion. In short, the Cole, supra majority had no compelling policy
or legal basis in law to remove the common law disqualification of law enforcement
on criminal juries. Before the decision in Cole, supra it was unnecessary to establish
that a bias actually existed because there was a presumption of bias regarding police
officers on criminal juries.

In Cole, supra the Illinois Supreme Court was not

concerned with the above-stated types of relationships but acknowledged that such

10

relationships existed.

In doing so, the Court disregarded the constitutional

protections guaranteed by the Sixth and Fourteenth Amendments to the U.S.
Constitution. The Petitioner asserts that Cole, 54 Ill. 2d 401 violates the principles
of stare decisis.
The belowstated dissent by Justice Schaefer in Cole must be the current legal
standard in order to guarantee criminal defendants their right to a fair trial by an
impartial jury as required by the Sixth and Fourteenth Amendments^
"This statement seems to suggest that the answers of a
prospective juror as to his subjective frame of mind determines
his qualification to serve as a juror. If this was true, there would
be no useful function for the judge to perform. It is not true, and
it is the duty of the judge to appraise the prospective juror's
frame of mind and to base his ruling upon that appraisal. I am
further of the opinion that the appellate court properly based
its ruling iipart upon the statement, often reiterated by this and
other courts, that "[i]twas a cardinal rule at common law that
jurors, to be qualified as impartial, should stand indifferent
between the parties and be wholly free from even the suspicion
of bias." (People v. Cravens. (1941), 375 Ill. 495,497)’ see also,
State v. Jackson (Revenell). (1964), 43 N.J. 148, 156-161, 203
A.2d 1,5-8, cert, denied (1965. 379 U.S. 982, 13 L. Ed. 2d 572,
85 S. Ct. 690, and cases cited therein.) To the extent that the
majority opinion has attempted to depreciate the requirement
that jurors be wholly free from the suspicion of bias, it has taken
a long step backward."
However, at a minimum, the Sixth and Fourteenth Amendments require the proper
application of the standard in cases where liberty interests and life time sex offender
registration are at issue. The Petitioner did not want the police officer to define
reasonable doubt.

Instead, he inquired with the officer as to whether or not he

differentiated between probable cause and reasonable doubt.

11

The statutory scheme contained in 705 ILCS § 305/1 et al. does not supersede
the common law, but instead supplements it by Illinois law. 705 ILCS § 305let al.
cannot limit, the Common Law disqualification, but only add to the Common Law, as
it does to assist trial courts.

See People v. Ringland, 2017 Ill. 119, 484, 89 N.E. 3d

735, 17 Ill. Dec. 876 (2017). Due process, impartiality, and a fair trial must be the
priority in considering a perspective juror’s education, background, and profession.
Also, common sense must be applied by acknowledging that, even if a perspective
juror says they can be fair and impartial, the case at issue will be viewed through a
juror’s personal life experiences, education, profession, and biases. Some states, such
as Louisiana and Georgia, have statutes mandating that prospective jurors who are
in law enforcement or with arrest powers must be excused from jury duty upon
motion of a defendant based on the potential for bias. In these states, it appears that
bias need not be shown by a defendant in order to exclude a law enforcement officer
from a criminal jury. Rather, it is policy to exclude a law enforcement officer as a
juror in a criminal case. Ellis v. State, 736 S.E.2d 412 (Ga. 2013); State v. Gaines,
688 So. 2d 679 (La. Ct. App. 4th Cir. 1997), writ denied, 700 So. 2d 503 (La. 1997).
72 A.L.R.3d 895. The decisions in these cases were based upon the proper application
of the preemptive federal standard for the Sixth and Fourteenth Amendments
applied against state law.
A case that provides compelling guidance regarding the aforementioned
conflict among states is State of West Virginia v. Marshall West, 200 S.E.2d 859
(1973, W. Va.). 72 A.L.R.3d 895 * 4. Here, the Court held that there was a common

12

law rule disqualifying a law enforcement officer from jury duty in a criminal case. In
West, the prospective juror was an employee of the state public safety department.
However, the court indicated that even if a tenuous relationship between a
prospective juror and any prosecutorial or enforcement arm of the state government
existed, then a challenge for cause should be sustained. Moreover, in reversing the
conviction for grand larceny, the lower court committed reversible error in denying
the Petitioner’s challenge for cause on the grounds that the prospective juror was an
employee of law enforcement, the Petitioner being required to exercise all of his
peremptory challenges to eliminate the juror from the panel. The court further held
in West, supra, that common law disabilities regarding jurors remain in effect unless
superseded by express statutory terms. The West court also indicated that this type
of juror disqualification under common law disabilities is prima facie disqualification
of a juror of the “same society or corporation of a party.” as interpreted at common
law. The opinion further stated that “obviously by virtue of the prospective juror’s
association with law enforcement officials, the juror was subject to potential
prejudice, and for that reason, a peremptory challenge should not have been required
to disqualify him.” According to West, supra, the object is to select a panel free from
prejudice or even the “reasonable suspicion of prejudice.” This complies with the
Sixth and Fourteenth Amendments to the U.S. Constitution.
It is asserted that the Petitioner was found guilty by an improper application
of the reasonable doubt standard and a faulty application of said standard.
Washington v. Recuenco, 548 U.S. 212, 126 S. Ct. 2546 (2006).

13

This improper

application caused a structural error, which casts doubt on the integrity of the verdict
and denied the Petitioner a fair trial by an impartial jury based solely on the Sixth
and Fourteenth Amendments to the U.S. Constitution. This structural error was
compounded by the fact that Illinois law forbids an instruction regarding the
definition of reasonable doubt.
An investigation of this Court’s decisions regarding the Sixth and Fourteenth
Amendment relative to an impartial juror claim involving a law enforcement officer
serving on a criminal jury, where a structural error was alleged and the officer was
the foreperson, reveals that this Court has not examined such a case and there is no
precedent set by this Court. The lack of U.S. Supreme Court precedent on this issue
is another compelling reason for this Court to hear and decide this issue as it relates
to the federal Constitution. This Petition is not simply a request to review a state
appellate court’s unpublished opinion based on state law on an adequate and
independent state ground because it involves significant federal constitutional fair
trial guarantees affecting thousands of criminal defendants throughout the entire
country.

States are conflicted as to whether law enforcement officers should be

allowed to serve on criminal juries. In its unpublished opinion, the Second District
Appellate Court of Illinois (“Appellate Court”) found that no structural error in the
trial or violation of the Petitioner’s Sixth and Fourteenth Amendment rights had
occurred.

This finding was based solely on alleged satisfactory answers to

perfunctory voir dire questions and purported observations of prospective juror’s
demeanor at the trial court’s discretion.

14

The Appellate Court did no analysis

regarding how the Common Law bar to police officers serving on criminal juries
interacts with Illinois law allowing such a bar in relative to the Sixth and Fourteenth
Amendments.
It also appears that the Appellate Court did not consider whether or not a
violation occurred when the trial court limited the defense counsel during voir dire
regarding the police officer’s understanding of the correct standard of proof that
should have been applied in the instant matter.

Specifically, the police officer’s

answers seemed to indicate confusion regarding the difference between a “reasonable
person” agreeing with him and proof beyond a reasonable doubt. This would violate
the holding in Recuenco, 548 U.S. 212 and its progeny.

Indeed, overwhelming

evidence of guilt is irrelevant if there is a structural error. In Illinois, the law and
pattern jury instruction 2.05 does not permit a definition of the reasonable doubt
standard to be tendered to a jury. People v. Downs, 2015 IL 117934, 410 Ill. Dec. 239,
69 N.E.3d 784; Illinois Pattern Jury Instruction 2.05. Therefore, it is unknown if the
jury applied the correct standard of proof of followed the Court’s instructions because
the police officer/foreman confused probable cause with reasonable doubt during voir
dire and the Petitioner was limited in questioning him in this regard. While there is
no constitutional right to a reasonable doubt instruction, it is clear that the proper
application of the reasonable doubt standard is critical to satisfying the Sixth and
Fourteenth Amendments. Louisiana, 508 U.S. 275 at 3, 7.
In accord is In re Winship, 397 U.S. 358, 90 S. Ct. 1068 (1970). In this case, it
was held inter alia as a matter of federal constitutional law (i.e. due process) based
15

on the Fourteenth Amendment that a New York juvenile law only required proof by
a civil preponderance of the evidence when a juvenile was charged with a criminal
offense.

The State of New York classified the juvenile proceeding as a civil

proceeding. However, this Court has found that process to be unconstitutional at the
adjudicatory phase when a juvenile is charged with a criminal offense. Hence, due
process of the Fourteenth Amendment requires proof beyond a reasonable doubt.
Further, it was reasoned, inter alia, that the adjudication of guilt based on a civil
standard of proof for a criminal offense, where a person can be deprived of their
liberty or given lifetime sex offender registration, is a Fourteenth Amendment lack
of fundamental fairness.

The Petitioner respectfully maintains that the basic

principles of federal law applied in Winship also apply to the instant matter. Serious,
life-altering consequences attach to this matter, such as the deprivation or restriction
of liberty and lifetime sex offender registration.

At issue are also consequences

regarding how the Petitioner can gain/retain employment, where he can live, whether
or not he can attend family gatherings, and if he can spend time with his children to
foster the close relationship with them that is vitally important to the Petitioner.
A jury verdict cannot be impeached based on statements made during jury
deliberations, which of course are confidential. Pena-Rodriguez v. Colorado, 137 S.
Ct. 855 (2017) held, inter alia, that in the context of a “Batson” challenge, a juror who
was a former police officer who sat on a criminal jury and passed a note to other jurors
indicating a certain racial stereotype regarding Hispanic’s propensities for violence
towards females.

The defendant in Colorado, Id. was Hispanic.

16

In general,

defendants are not allowed to invade the sanctity of jury deliberations pursuant to
an established, long-held Common Law rule called the “no impeachment rule.”
However, in this case, even though a state “no impeachment rule” applied to PenaRodriguez v. Colorado, the Court yielded to the federal question of an impartial jury
as it relates to fair trial guarantees of the Sixth and Fourteenth Amendments. The
opinion in Pena-Rodriguez v. Colorado, 137 S. Ct. 855 (2017) cites the federal counter­
part by analogy to Colorado’s “no impeachment rule,” where a juror cannot testify in
court as to any statement made during deliberations (see Federal Evidence Rule
606(h)). The opinion also provides that the common law adopted in the U.S. by states
grew alongside the federal constitutional requirements of a fair trial by an impartial
jury. In essence, the Colorado, Id. holding clearly provided that the state law on no
jury impeachment of a verdict must be superseded by the Sixth and Fourteenth
Amendments guaranteeing a fair trial by an impartial jury.
Considering the heinous nature of allegations of aggravated sexual abuse
toward a minor and the inherent bias that unconsciously attaches to such allegations,
it is hard enough to achieve a fair trial by an impartial jury even without a police
officer on the jury. This inherent prejudice associated with allegations of sexual
abuse are especially poignant in the era of the “Me Too” movement and highly
prejudicial media coverage of several high-profile sexual abuse cases (e.g. Harvey
Weinstein, Bill Cosby, Jeffrey Epstein, and sex abuse cases within the Catholic
church). Additionally, police officers are not the heroes to society today that they
were when People v. Cole, 54 Ill. 2d 401, 298 N.E.2d 705 (1973) was decided. It is

17

neither irrelevant nor unfounded to assert serious doubts that a police officer would
apply sound and fair judgment in a criminal trial in light of recent, high-profile crimes
or alleged crimes involving excessive force, unnecessary force, and murder (e.g.
former police officers Jason Van Dyke, found guilty of second degree murder of
Laquan McDonald; officer/s in connection with the killing of Breonna Taylor; Derek
Chauvin on trial for the murder of George Floyd; and Michael Slager, who was
sentenced to 20 years in federal prison for the killing of Walter Scott).
X.

CONCLUSION

For the foregoing reasons, this petition for a writ of certiorari should be
granted. The Petitioner was not tried by an impartial jury as pursuant to the Sixth
and Fourteenth Amendments to the United States Constitution because a police
officer was permitted to serve on the jury after the Petitioner used all of his
peremptory challenges and his motion to remove said juror for cause was denied by
the trial court. The police officer was selected as the jury foreman and the jury
deliberated for less than two (2) hours.

Moreover, the trial court denied the

Petitioner’s counsel the opportunity to inquire with the police officer during voir dire
as to what the officer associated with a “reasonable person standard” regarding the
reasonable doubt standard required to convict a defendant in a criminal trial.
The Petitioner maintains that the jury applied an improper standard to convict
him, which was dictated by the police officer/foreman. Regardless of any perceived
overwhelming evidence of the Petitioner’s guilt, a structural error occurred in the
trial, which denied the Petitioner a fair trial by an impartial jury. Lastly, the policy
18

and decisions pertinent to this Petition will affect thousands of criminal defendants
and their Constitutional right to fair trials by impartial juries. Furthermore, based
on a federal constitutional basis, decisions pertinent to this Petition will settle the
conflict among states regarding this issue, allowing uniform application by all state
courts on this issue that uniformly affects the outcome of criminal trials. Simply put,
this issue is too significant and impactful on the outcome of criminal trials, regardless
of the state in which such a trial is held, to be decided discretionarily and on the basis
of state law independent of rights guaranteed by the Sixth and Fourteenth
Amendments to the U.S. Constitution.

DATED this 15th day of April, 2021.

Respectfully submitted,
Salvatore C. Miglore
Counsel ofRecord
SALVATORE C. MIGLORE & ASSOCIATES
300 S. Carlton Avenue, Suite 130
Wheaton, IL 60187
(630) 933-8400
sal@lincolnlaw group .com

19

